<html>
<title> - NATO: REPORT OF THE GROUP OF EXPERTS</title>
<body><pre>[Senate Hearing 111-629]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-629
 
                  NATO: REPORT OF THE GROUP OF EXPERTS 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

61-622 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  















                            C O N T E N T S

                              ----------                              
                                                                   Page

Albright, Hon. Madeleine, former Secretary of State, Principal, 
  Albright Stonebridge Group, Washington, DC.....................     4
    Prepared statement...........................................     7
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

                                 (iii)

  


                  NATO: REPORT OF THE GROUP OF EXPERTS

                              ----------                              


                         THURSDAY, MAY 20, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:25 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Shaheen, Kaufman, and Lugar.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    We are very fortunate today to be joined by one of 
America's leading diplomats. And as we begin this hearing, I'm 
reminded of an event just the other day to celebrate Madeleine 
Albright's work, with a number of distinguished participants, 
including the current Secretary of State, who spoke about 
Secretary Albright's accomplishments. And I had the privilege 
of saying a few words, and I mentioned that she once was asked 
who the toughest negotiating partner she had in all her years 
as U.N. Ambassador and as the Secretary of State. Senator 
Lugar, I want you to know, she didn't miss a beat. She said, 
``That's easy. Foreign Relations Committee Chairman Jesse 
Helms.'' [Laughter.]
    I promise you, Madam Secretary, this is not going to be 
that kind of session. We are very appreciative for your 
willingness to come back here today and testify before the 
committee on the important topic of NATO.
    Last year, NATO Secretary General Rasmussen asked Secretary 
Albright to chair an expert group responsible for guiding 
NATO's 2010 Strategic Concept. And today she's here to offer 
her findings as part of the ongoing discussion on NATO's 
future, a topic of considerable concern to all of us, given the 
changing nature of the challenges to NATO and, indeed, to the 
European community and to all of us together.
    Like a lot of international institutions that defined the 
second half of the 20th century, NATO needs to struggle, and is 
struggling a little, with the changes of the 21st century. In 
many ways, we continue to wrestle with a similar question to 
the one with which the Clinton administration wrestled, which 
is: How can alliance built in the middle of the 20th century, 
in the context of the cold war, evolve to meet 21st-century 
threats?
    Obviously, a strong alliance of like-minded democracies 
grounded in mutual defense is a major strategic asset in 
confronting different global problems. NATO's 28 member states 
represent some 840 million people who, collectively, account 
for nearly half of the world's GDP.
    But unless we actively shape the institution to match new 
challenges, we simply can't take for granted that NATO is going 
to perform the role that it was created for: the protection of 
its member states.
    Our definition of security is now expanding to include new 
challenges, the obvious ones of the post-9/11 world: terrorist 
networks, but many others, including cyber crime, energy 
security, the security consequences of climate change, and the 
struggle of religious radical fanaticism. These are just a few 
of the many issues on which member countries are seeking 
greater cooperation. And each deserves further exploration from 
NATO.
    In Afghanistan the alliance has taken on a new and very 
challenging mission, its first outside Europe. And while we 
mourn the death, now, of some 1,000 American service men and 
women--there's a poignant 2-page example of that cost in the 
Washington Post today, where you see the photographs and small 
bios of each of the most recently fallen soldiers--we have to 
recognize that our NATO allies, too, are serving heroically and 
are experiencing losses.
    As we contemplate future NATO missions, we need to have 
processed and thoroughly understood the military and political 
lessons of Afghanistan. One of them is that a modern military 
mission needs to be fully integrated with a civilian effort, 
and that security within NATO is sometimes going to mean acting 
beyond its boundaries.
    In addition, whatever missions we undertake have to be 
formulated in a way that continues to attract the support of 
member-countries' citizens, ours included.
    Reinventing NATO also means building stronger, more stable 
relations with our former enemy, Russia. It is encouraging that 
both the United States and NATO have made significant progress. 
And we're very optimistic that we can deepen this cooperation, 
with the signing of the New START Treaty. I believe that we 
need to carefully balance our improved relations with Russia 
with strategic reassurances that our Eastern NATO allies can 
depend on and deserve.
    We also need to address a series of practical challenges 
that have become apparent since the last Strategic Concept was 
drafted in 1999.
    First, it's clear that the European Union's foreign policy 
responsibilities have multiplied, and the two organizations 
have to find a way around the existing impasse in order to 
improve cooperation.
    Second, NATO needs to improve its decisionmaking ability, 
while preserving the principle of consensus.
    Third, members of the alliance should continue to pool 
resources under joint commands--and eliminate those commands 
that are no longer necessary. We all know that we're struggling 
right now to get some member countries to ante up to the 
challenge that NATO, by consensus, has accepted. And it's 
proving very difficult--to get either troops or resources in 
some cases.
    Fourth, NATO must do more to protect its own infrastructure 
and critical systems against cyber attacks, and consider how 
the alliance is going to respond to this very new and very 
dangerous threat.
    Finally, we need to address the difficult question of 
tactical nuclear weapons. NATO's agreement to discuss this 
question as an alliance is a good one. We shouldn't be 
negotiating piecemeal what is, at core, a question of 
collective security. There's a great deal of interest in these 
questions on the committee, and they've already been proffered 
in the course of a number of hearings on the New START Treaty 
with respect to Russia's tactical weapons and with respect to 
Europe.
    These aren't easy questions. The dangers present at the 
creation of NATO have now largely been supplanted by a new set 
of urgent concerns. But NATO has often been described as a 
``living alliance.'' And the proof will be in what we succeed 
in defining, in terms of NATO's mission, over the course of 
these next years.
    As Secretary of State during the second half the Clinton 
administration, Madeleine Albright already presided over two 
pivotal moments in NATO's history: NATO's decision to use 
military force to end the genocide in Kosovo; and the admission 
of Poland, Hungary, and the Czech Republic into the alliance. 
Secretary Albright has already played a profound role in 
shaping NATO's present, and now she's been asked by NATO to 
help shape its future.
    Last October, Secretary Albright appeared before the 
committee to discuss this ongoing work. And now she and a group 
of distinguished experts from allied countries have released 
the finished product, ``NATO 2020: Assured Security, Dynamic 
Engagement.'' And we look forward to discussing that here this 
morning.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I join you in welcoming our 
distinguished witness. And I was relieved, as you were, that 
neither one of us were named as the more difficult negotiator. 
[Laughter.]
    But, leaving that aside for the moment, we look forward to 
hearing the details of the report on the future of NATO issued 
on Monday by Secretary Albright and the Group of Experts. This 
report will serve as a key contribution to ongoing discussions 
on the new NATO Strategic Concept that will be adopted this 
fall by NATO heads of state.
    In particular, I am hopeful that today's hearing can 
contribute to deliberations on several questions about the 
direction of NATO's defense plans.
    First, before we can chart a course forward, the alliance 
must ask what the NATO strategic review is intended to achieve. 
In response to the new threat environment that has emerged 
since the previous Strategic Concept, written in 1999, the 
alliance has fielded more than 100,000 troops and 27 Provincial 
Reconstruction Teams in Afghanistan and has undertaken new 
missions in the realm of energy security, cyber defense, 
antipiracy, and WMD interdiction. In other words, the 
alliance's conceptual thinking has already evolved 
significantly. The new NATO Strategic Concept should not only 
solidify this evolution, it should create momentum for 
addressing national deficiencies with regard to public opinion, 
defense reform execution, and budgeting, which remain the most 
difficult obstacles to alliance success.
    Second, what role should nuclear weapons play in NATO's 
strategic posture? While some allies have made unprecedented 
calls for the withdrawal of U.S. tactical nuclear weapons from 
Europe, the planned sharing of these weapons on allied aircraft 
still is a key element of NATO's defense plans. The new 
Strategic Concept must consider the consequences that altered 
nuclear planning would have on the security of Eastern European 
states. It also must consider how NATO's nuclear planning will 
affect proliferation decisions of allies, especially those 
proximate to Iran, such as Turkey.
    And, third, how can we strengthen conventional Article 5 
deterrence? Following the 2008 Russia-Georgia war, many have 
rightly called for measures to reassure Eastern European 
allies. The reality is that most allies view the presence of 
United States troops and hardware as the ultimate guarantor of 
their security. Failing an alliance consensus on the role new 
allies may play in hosting NATO infrastructure, the 
implementation of reassurance measures, including missile 
defense plans, infrastructure upgrades, and troop deployments, 
will continue to be hampered.
    Fourth, what constitutes an attack under Article 5 in 
today's strategic environment? The decline in the deterrent 
value of Article 5 became most apparent with the onset of a 
string of energy crises in Europe and the adoption by several 
West European governments of ``beggar-thy-neighbor'' policies 
with respect to oil and natural gas arrangements with the 
Russian Federation. When I speak with leaders from Eastern 
European countries, they are especially concerned with the 
threats posed by cyber war, energy cutoffs, and hazardous 
materials. Since 2006, I have advocated that energy security be 
incorporated into Article 5, and I continue to believe that the 
alliance must undertake planning to establish a credible 
deterrent against emerging unconventional threats.
    I thank the chairman again for calling this hearing, and we 
look forward very much to discussions of these matters with our 
distinguished witness.
    Thank you, Mr. Chairman.
    The Chairman. No; thank you, Senator Lugar.
    And I appreciate the presence of the chair of our 
Subcommittee for Europe, Senator Shaheen.
    Also, Ambassador Kutelia, of Georgia, is here. And we 
welcome you back to the committee. Thank you.
    So, Madam Secretary, we look forward to your testimony. You 
can summarize or put the whole statement in the record, 
whatever you prefer.
    Thank you.

 STATEMENT OF HON. MADELEINE K. ALBRIGHT, FORMER SECRETARY OF 
  STATE, PRINCIPAL, ALBRIGHT STONEBRIDGE GROUP, WASHINGTON, DC

    Dr. Albright. Thank you very much, Mr. Chairman and Senator 
Lugar, Senator Shaheen.
    It's a pleasure to be with you. And thank you very much for 
inviting me.
    When I came here last fall--that NATO group of experts--we 
were just beginning our work. And now that we've finished, I 
really am very pleased to present the recommendations to you.
    As you know, the group was conceived a little bit more than 
a year ago at the alliance summit at Strasbourg-Kehl. And its 
mandate--and I have to--we have to make this very clear--its 
mandate was to provide analysis and recommendations to NATO's 
Secretary General as he prepares the Strategic Concept for 
allied consideration in November in Lisbon.
    The experts group, just like NATO, is diverse. So, we had 
some fairly spirited internal debates. But, also like the 
alliance at its best, we were able to end up speaking with a 
single voice. So, this is a consensus report.
    In fact, most of our recommendations flow from two basic 
conclusions: first, that the alliance has an ongoing duty to 
guarantee the safety and security of its members; and, second, 
that it can achieve that objective only if it engages 
dynamically with countries and organizations outside its 
boundaries.
    So, to safeguard security at home, the alliance has to 
continue to treat collective defense as its core purpose. And 
this does reflect the primacy of Article 5 of the North 
Atlantic Treaty and our belief that the security of each ally 
cannot be separated from that of all.
    Accordingly, NATO has to maintain a flexible mix of 
military capabilities, including conventional, nuclear, and 
missile defense. And it has to conduct appropriate contingency 
planning and military exercises so that allies may feel 
confident that their borders will indeed be protected.
    These measures are fundamental to NATO's identity and 
purpose, but they aren't sufficient. Between now and 2020, the 
alliance will face a new generation of dangers from sources 
that are geographically and technologically diverse. And some--
you have both mentioned some of these. These include violent 
extremism, nuclear proliferation, cyber assaults, and attacks 
on energy infrastructure and supply lines.
    Because such perils can arise rapidly and from any 
direction, the alliance has to be much more versatile. And to 
this end, we have the following suggestions: It should 
accelerate transformation through the development of military 
forces that are sustainable, deployable, and interoperable; it 
should improve its capacity for rapid response; it should 
attach a high priority to shielding information from cyber 
attacks; and with resources tight, it should allocate defense 
funds wisely by increasing its commitment to joint procurement 
and specialized needs.
    All this is vital, for NATO's good intentions have to be 
matched by its capabilities.
    The alliance has to be strong, but it also must be smart. 
And in our era, nothing is smarter than having capable 
partners. I think this is one of the most interesting 
innovations that we talked about. The Group of Experts was 
united in its view that partners should play an increasing role 
in NATO activities, and that the alliance should explore every 
opportunity for strengthening its partnership ties, both as a 
pragmatic means for solving problems and as an instrument of 
political dialogue.
    Accordingly, NATO should improve its ability to work with 
other countries and organizations, especially in situations 
where a blend of military, economic, and political measures are 
required. And this principle applies to countries that are part 
of a formal partnership arrangement with NATO and those that 
are not.
    So, for example, Australia and New Zealand have contributed 
troops to Afghanistan, and the Republic of Korea intends to 
send troops, and Japan has supplied money for fuel. One of our 
recommendations is that such operational partners be given a 
significant role in planning and shaping the missions to which 
they contribute.
    Another partnership that attracted discussion within our 
group is that between NATO and Russia. For reasons of history 
and geography, some allies are more skeptical than others about 
Russia's commitment to a positive relationship. And this 
divergence was reflected among the experts. But there was no 
disagreement about what NATO's policy should be. It is clearly 
in NATO's best interest to work with Moscow to build a 
cooperative Euro-Atlantic security order, and to respond to 
such shared concerns as terrorism, nuclear proliferation, 
piracy, and drug trafficking. Partnership, as we know, is a 
two-way street. But, from the alliance perspective, the door to 
cooperation with Moscow should remain open at all levels.
    NATO can also influence its security environment by 
continuing its policy of gradual enlargement. Prospective NATO 
members in the Western Balkans and elsewhere in the Euro-
Atlantic region have a right to fair consideration, based on 
the same guidelines that steered decisions about new members in 
the past.
    NATO today is busier than ever, but this does not mean that 
the alliance must go everywhere and do everything. There are 
limits to its resources and responsibilities. Indeed, the new 
Strategic Concept should propose criteria for making wise 
decisions about when and where to commit NATO resources beyond 
its boundaries.
    In addition, alliance leaders should learn from the 
experiences in Afghanistan by recognizing the imperative of 
political cohesion, the desirability of a unified command, the 
value of effective planning, the importance of public 
communication, and the need to deploy forces at a strategic 
distance for an extended period of time.
    There should be no question that NATO's fundamental purpose 
is to protect the security of its members, but providing 
security is a more complicated proposition than in the past. 
Thus, NATO should consider the possibility, when resources are 
sufficient and legal authority is clear, of helping the world 
respond to catastrophic emergencies, whether caused by nature 
or by human beings.
    Further, we should recognize that NATO is more than just a 
military alliance. It is also a political community and should 
therefore make more regular and creative use of the mechanism 
for consultations under Article 4.
    All of these measures should be accompanied by a commitment 
to organizational reform. The Secretary General must have the 
authority and mandate to streamline decisionmaking, prune the 
bureaucracy, and identify savings that can be used for military 
transformation.
    Mr. Chairman and members of the committee, in the past 8 
months, the Group of Experts has had to think deeply about the 
issues that some fear could undermine the future cohesion of 
the alliance. And these include the apparent tension between 
homeland defense and expeditionary missions, the difference in 
attitudes toward Russia, the imbalance in military 
expenditures, and the nuclear question.
    And when we started out, I have to confess to harboring 
some doubts about whether we would be able to define a common 
approach toward these and other issues. But, as we went along, 
I really found that there was such a desire for agreement, and 
that that outweighed the dubious pleasures of argument, and 
that, with sufficient patience, the basis for a common approach 
could be found.
    Now, no one can expect an alliance of 28 members to 
function without occasional grumbling and dissent. But I did 
arrive, at the conclusion of this process, with more optimism 
about NATO's continued unity and future success than when I 
began. And I have to say, I was truly honored to chair this 
very interesting Group of Experts, and to have something to do 
with making NATO a versatile and agile instrument in a period 
of great unpredictability.
    Thank you all very much. And I look forward to answering 
questions.
    [The prepared statement of Dr. Albright follows:]

Prepared Statement of Madeleine K. Albright, Former Secretary of State, 
         Principal, Albright Stonebridge Group, Washington, DC

    Good morning, Mr. Chairman and members of the committee, and thank 
you for inviting me.
    When I came before you last fall, the NATO Group of Experts was 
just beginning its work.
    Now we have just finished and I am pleased to share with you our 
recommendations.
    As you know, the Group of Experts was conceived a little more than 
a year ago at the Alliance summit in Strasbourg-Kehl.
    Its mandate was to provide analysis and recommendations to NATO's 
Secretary General as he prepares a new Strategic Concept for Allied 
consideration in Lisbon this coming November.
    The Experts Group, like NATO, is diverse--and so we had spirited 
internal debates.
    But also like the Alliance at its best--we were able in the end to 
speak with a single voice.
    In fact, most of our recommendations flow from two basic 
conclusions.
    First, the Alliance has an ongoing duty to guarantee the safety and 
security of its members.
    Second, it can achieve that objective only if it engages 
dynamically with countries and organizations that are outside its 
boundaries.
    To safeguard security at home, the Alliance must continue to treat 
collective defense as its core purpose.
    This reflects the primacy of Article 5 of the North Atlantic Treaty 
and our belief that the security of each ally cannot be separated from 
that of all.
    Accordingly, NATO must maintain a flexible mix of military 
capabilities, including conventional, nuclear, and missile defense.
    It must also conduct appropriate contingency planning and military 
exercises so that allies may feel confident that their borders will 
indeed be protected.
    These measures are fundamental to NATO's identity and purpose--but 
they are not sufficient.
    Between now and 2020, the Alliance will face a new generation of 
dangers from sources that are geographically and technologically 
diverse.
    These threats include violent extremism, nuclear proliferation, 
cyber assaults and attacks on energy infrastructure and supply lines.
    Because such perils can arise rapidly and from any direction, the 
Alliance must become more versatile.
    To this end:

  <bullet> It should accelerate transformation through the development 
        of military forces that are sustainable, deployable, and 
        interoperable;
  <bullet> It should improve its capacity for rapid response;
  <bullet> It should attach a high priority to shielding information 
        from cyber attacks; and
  <bullet> With resources tight, it should allocate defense funds 
        wisely, by increasing its commitment to joint procurement and 
        specialized needs.

    All this is vital--for NATO's good intentions must be matched by 
its capabilities.
    The Alliance must be strong, but it must also be smart and--in our 
era--nothing is smarter than having capable partners.
    The Group of Experts was united in its view that partners should 
play an increasing role in NATO activities, and that the Alliance 
should explore every opportunity for strengthening its partnership ties 
both as a pragmatic means for solving problems and as an instrument of 
political dialogue.
    Accordingly, NATO should improve its ability to work with other 
countries and organizations, especially in situations where a blend of 
military, economic, and political measures are required.
    This principle applies to countries that are part of a formal 
partnership arrangement with NATO and those that are not.
    For example, Australia and New Zealand have contributed troops to 
Afghanistan, the Republic of Korea intends to send troops, and Japan 
has supplied money and fuel.
    One of our recommendations is that such operational partners be 
given a significant role in planning and shaping the missions to which 
they contribute.
    Another partnership that attracted discussion within our Group is 
that between NATO and Russia.
    For reasons of history and geography, some allies are more 
skeptical than others about Russia's commitment to a positive 
relationship.
    This divergence was reflected among the experts, but there was no 
disagreement about what NATO's policy should be.
    It is clearly in NATO's best interest to work with Moscow to build 
a cooperative Euro-Atlantic security order and to respond to such 
shared concerns as terrorism, nuclear proliferation, piracy, and drug 
trafficking.
    Partnership, as we know, is a two way street--but from the Alliance 
perspective, the door to cooperation with Moscow should remain open at 
all levels.
    NATO can also influence its security environment by continuing its 
policy of gradual enlargement.
    Prospective NATO members in the Western Balkans and elsewhere in 
the Euro-Atlantic region have a right to fair consideration based on 
the same guidelines that steered decisions about new members in the 
past.
    NATO today is busier than ever, but this does not mean that the 
Alliance must go everywhere and do everything--there are limits to its 
resources and to its responsibilities.
    Indeed, the new Strategic Concept should propose criteria for 
making wise decisions about when and where to commit NATO resources 
beyond its boundaries.
    In addition, Alliance leaders should learn from its experiences in 
Afghanistan by recognizing the imperative of political cohesion, the 
desirability of unified command, the value of effective planning, the 
importance of public communications, and the need to deploy forces at a 
strategic distance for an extended period of time.
    There should be no question that NATO's fundamental purpose is to 
protect the security of its members.
    But providing for security is a more complicated proposition than 
in the past.
    Thus, NATO should consider the possibility, when resources are 
sufficient and legal authority is clear, of helping the world respond 
to catastrophic emergencies, whether caused by nature or by human 
beings.
    Further, we should recognize that NATO is more than just a military 
alliance; it is also a political community, and should therefore make 
more regular and creative use of the mechanism for consultations under 
Article 4.
    All of these measures should be accompanied by a commitment to 
organizational reform.
    The Secretary General must have the authority and the mandate to 
streamline decisionmaking, prune the bureaucracy, and identify savings 
that can be used for military transformation.
    Mr. Chairman, in the past 8 months, The Group of Experts has had to 
think deeply about issues that some fear could undermine the future 
cohesion of the Alliance.
    These include the apparent tension between homeland defense and 
expeditionary missions; the difference in attitudes toward Russia; the 
imbalance in military expenditures; and the nuclear question.
    When we started out, I confess to harboring doubts about whether we 
would be able to define a common approach toward these and other 
issues.
    But as we went along, I found that the desire for agreement 
outweighed the dubious pleasures of argument and that, with sufficient 
patience, the basis for a common approach could be found.
    No one can expect an Alliance of 28 members to function without 
occasional grumbling and dissent.
    However, I arrive at the conclusion of this process with more 
optimism about NATO's continued unity and future success than when I 
began.
    Thank you; and now I would be pleased to respond to any questions 
you might have.

    The Chairman. Thank you, Madam Secretary.
    If all those things can work, it sounds very encouraging 
and positive.
    I want to try to press you, in terms of the experience that 
we've been through, and measure it a little.
    Can you share with us how people dealt with the reality of 
the divisions that exist today over participation in 
Afghanistan as people look at the spotty record of some in 
participation--the ``very tailored'' or ``carved out'' special 
approaches that other nations have chosen; i.e., they won't put 
in combat forces; they'll provide police, or they'll provide 
money, or else send certain kinds of assistance, but not any 
else. It's such a tug-of-war to get people to understand, this 
is not about the United States. After all, Madrid was bombed, 
London was bombed. There have been other terrorist events in 
Europe.
    Is their attitude just different about this than ours 
regarding Afghanistan, and therefore, are we trying to fit NATO 
into an inappropriate challenge? And if there are other 
challenges, maybe there would be greater unity on them? How did 
you, as you talked this through, resolve these very obvious 
differences of approach to this threat?
    Dr. Albright. Well, first of all, one of our real questions 
was: To what extent should we spend time on Afghanistan? And--
because this is supposed to be a Strategic Concept for the next 
decade, not for the next year--and clearly, Afghanistan is a 
major issue. So, what we decided to do was, in our second 
seminar, we really looked at what the lessons learned were out 
of these out-of-area operations. And Afghanistan, obviously, 
was the major issue.
    And there were a number of issues that came up with regard 
to that, that in many ways deal with the questions that you 
pose.
And it requires a little bit of going back to how NATO got into 
Afghanistan.
    What happened, as you know, is that it was the first time 
that Article 5 was activated. After 9/11, one of the allies had 
been attacked, and others had a responsibility to respond. And 
they did. The problem was that, to some extent, there was a 
desultory--or I don't know what the exact right word is--
response to using NATO as the instrument, and there were ways 
that there were--putting together coalitions of the willing--
various ways that the United States decided to deal with that. 
And then we turned our attention to Iraq.
    So one of the questions was: How did this whole operation 
get put together in the first place? And, what was expected of 
the various allies? And how was the whole command pulled 
together?
    We took these questions as a lesson. And concluded that in 
the future there had to be some unity of command, that there 
shouldn't be national caveats, that there had to be common 
planning, and that there had to be a way to obviate the very 
things that you spoke about, and in terms of understanding who 
contributes what.
    The other part----
    The Chairman. Do you believe that was achieved?
    Dr. Albright. No. Well, we were talking about the future. 
We met with the military authorities many times, and we 
obviously raised these issues when we were talking to----
    The Chairman. Right.
    Dr. Albright [continuing]. Other experts. But we put it 
down as something that had to happen in the future if these 
kinds of expeditionary missions were to be undertaken--the 
lessons learned.
    The other part that came out and is now part of the 
vocabulary--what Afghanistan has taught is what we are calling 
``the comprehensive approach,'' which is that maybe the future 
kinds of missions like this are not ones that can be only won 
by the military; there has to be a civilian and military 
component acting together. So, we recommended that a part of 
the NATO structure have a small civilian unit that could help 
coordinate the nonmilitary components of an international 
response to a complex situation.
    Another point is that we did not want to make Afghanistan 
the be-all and end-all of NATO. It is a mission, a very 
important mission, and lessons have to be learned from it, but 
the Strategic Concept has to go beyond just Afghanistan.
    The Chairman. I'm a little either confused or troubled by 
the notion that they can deal with the future, but not the 
present, and I'm not sure what gets them to perform differently 
in the future if they're unwilling to do so now. What if 
there's the same desultory response to some particular 
challenge--if one other nation gets hit, and they say, ``Well, 
now we all have to respond.'' What is there to suggest that 
they will do so differently than they have in this particular 
instance?
    Dr. Albright. Well, first of all, I believe that they--from 
everything that I could tell in dealing with the people in 
NATO, they have taken on board what the problems have been in 
Afghanistan. The Secretary General has gone out there and 
really gotten additional troops, has made the point about the 
national caveats, has made the point about the sustainability 
of having deployed forces. He's also made the point about 
countries contributing resources.
    And I think they have learned. They have been learning. 
There's no question in my mind about that. And I didn't mean to 
intimate that they were not learning on the job; I think they 
are. I think they're trying to figure out how to make up for 
some of the problems that have existed for the last 7 years.
    For instance--it's interesting. I was in Australia 
recently. The Australians have clearly contributed many forces 
to Afghanistan. They were not involved in the original 
planning. They are now very much part of what is going on, in 
terms of the partnerships.
    So, I think a lot has been learned. There are a lot of NATO 
forces in there. But, I was speaking more to the point of what 
we were trying to do in the Strategic Concept, because we were 
not dealing specifically with instructions to NATO forces right 
now. But, having a civilian representative and a military 
representative--all those things, I think, are part of the 
learning process dealing with the U.N. and other organizations.
    The Chairman. Let me come back, in the next round, if I 
can. Thank you Madam Secretary.
    Senator Lugar.
    Senator Lugar. Secretary Albright, several allies have 
called for withdrawal of the remaining United States tactical 
nuclear weapons from Europe, which are in the form of gravity 
bombs that can be deployed on allied dual-capable aircraft. As 
you know, these weapons were not included in the START Treaty 
negotiations, and have not been the subject of prior arms 
control agreements with Russia. The Russian tactical nuclear 
arsenal exceeds the NATO arsenal by nearly 10 to 1. And Russia 
is not only modernizing its tactical system, but is also 
placing greater reliance on nuclear weapons, as we heard from 
Secretary Gates on Tuesday.
    Now, my questions are: How do you view the role of NATO and 
Russian tactical weapons in Europe? And what strategy do you 
recommend for engaging Russia on reducing its tactical nuclear 
arsenal? And second, what approaches have the other nuclear-
weapon states in NATO, namely Great Britain and France, taken 
on the question of NATO's nuclear posture in Europe?
    Dr. Albright. Senator Lugar, we spent quite a lot of time 
on this and, I think, had some of our livelier discussions on 
this particular issue. And we have written about this very 
specifically. Let me just go into this a bit and respond to 
what you asked.
    First of all, it's very clear that NATO continues to rely 
on conventional and nuclear weapons. That is part of the 
deterrent posture. And we also believe that, as long as nuclear 
weapons remain a part of the system, that the alliance has to 
have a nuclear component. And we've tried to fit that in to the 
general discussion that it would be--the world will be better 
off without nuclear weapons. But, so long as they exist, NATO 
must take that reality into account.
    So, one of the aspects that we looked at was specifically--
and this was not easy, because, as we were speaking about this, 
various Parliaments were making unilateral statements about 
what they desired to do, and also the fact that, when we were 
in Russia, there were discussions about what to do about the 
substrategic--and so, what we came up with was that we felt it 
was very important that as long as nuclear weapons existed, 
that whatever decisions were made on the tactical nukes had to 
be made as an alliance, which I think is a very strong 
statement, especially given what some of the political 
discussions were about. And I was very glad that we were able 
to get that kind of a consensus agreement.
    We also did believe that it was very important to have 
discussions with the Russians over this. As you know, there are 
some who believe that we should just do this unilaterally. We 
came up with the idea that there be, in fact, talks, and that 
the special consultative group on arms control be reestablished 
in order to be able to have this kind of a dialogue both 
internally within the alliance and with the Russians on this 
issue. And I think that was a pretty good consensus approach to 
it, given what some of the political issues on all this are.
    Senator Lugar. Well, I thank you for that answer and 
likewise for citing specifically what is in the report that you 
have been authoring and will be considered by our NATO allies.
    Let me now address the issue of energy security. Energy 
security constitutes one of the often-mentioned 21st-century 
threats that many people, including myself, believe NATO must 
take a lead on. While some have argued that these tasks should 
be left to the European Union, the EU has, for a number of 
reasons, shown it's not really up to the task. I've been 
encouraged that NATO has made energy security a part of its 
operational duties throught activities such as infrastructure 
protection and intelligence analysis.
    My question is: How do you believe energy security can be 
made a part of NATO's core operation? And is this addressed in 
the report that you're presenting?
    Dr. Albright. Again, we had a very interesting discussion 
on this. And I know, Senator, this is one of the issues you've 
brought up when I was here before, and I specifically wanted to 
direct our discussions to deal with this issue. Also, the vice 
chair, selected by Secretary General Rasmussen, was Jeroen van 
der Veer, who had been the former CEO of Royal Dutch Shell. So, 
we had an energy expert. And it was very interesting, in terms 
of how we talked about what the issues were. And we tried to 
kind of unpackage the whole question.
    Clearly, one of the major issues to deal with energy 
security is for the various countries involved to try to find 
alternative sources and conservation. And we did talk about 
that. However, there's no question that a certain number of the 
countries are dependent on imported energy supplies. And so, 
on--via pipelines and shipping. And the way that we parsed 
this--I know what you just said about the EU, but the bottom 
line is, in terms of some of the issues that have to do with 
diplomacy, that the EU should have a role in it. We also 
thought that, since we spent quite a lot of time talking about 
the potential uses of Article 4, which were consultative issues 
and make this a political community, that one could, in fact, 
raise issues of energy supply within NATO under Article 4, but 
that there was a partnership with the EU. We also did consider 
the fact that, if there were attacks or sabotage or something 
that involved the physical destruction of rigs or pipelines, 
that then NATO should have a role in dealing with that.
    So, we kind of unpacked all this. And we did say--and 
again, the recommendation that we made, if I might just cite 
it, is, ``The potential for major energy supply disruption 
should figure prominently in NATO's strategic assessment and 
contingency planning activities. Thought should be given in 
advance to how the alliance might work with partners in an 
emergency situation to mitigate harm to its members and find 
alternative sources.'' So, we did consider this at some length.
    There was also the issue of the High North, what would 
happen there. And what really happened was, countries thought 
that they should deal with it on a national basis.
    So, definitely on the agenda, and unpacked in a way that I 
think provided some guidance for the Secretary General on this.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I understand Senator Kaufman has a pressing engagement, and 
Senator Shaheen is allowing him to go ahead with his remarks.
    So, thank you, Senator Shaheen.
    And, Senator Kaufman, you're recognized.
    Senator Kaufman. Thank you, Mr. Chairman, for holding this 
hearing.
    And thank you, Senator Shaheen. One of the bad sides of 
being a Senator.
    We had a good discussion before you kind of went off and 
solved these problems.
    First, I want to thank you for your service. Your service 
is incredible, what you do. And what you bring to our whole 
effort is just wonderful.
    And I want to, kind of, take a little, slight divergence to 
what Senator Kerry said. I agree totally with what he said. 
But, you know, the problem here--and I agree with--totally 
what--everything he said. If we can't do it in Afghanistan, 
what makes us think you're--we'll be able to do it down the 
road? But to get back to what--the discussion we had before you 
left, and that is, you've got an organization here that's done 
incredible good for the world--for Europe and for the world--
NATO--which I have been a very strong supporter, and everybody 
I've ever worked with has been a strong supporter for, and I 
know you're a strong supporter--as a--it's changed the face of 
Europe. By forcing people to change their internal governance 
in order to be members of NATO, the impact has been incredible.
    But, now we find ourselves with an organization that has 28 
members. How does it ever--I know we've talked about this 
before--how do you ever operate, in a military situation, with 
28 members? And I think what the chairman's talking about is--
in Afghanistan--is an example of how difficult it is to operate 
militarily, with 28 folks. So, can you--the Group of Experts--
kind of, what do they see, in terms of the actual NATO, totally 
as a military operation, trying to operate with 28 members?
    Dr. Albright. I went over my testimony from last time, and 
your questions, and that you had doubts. But, I think what is 
interesting is that, in some ways, NATO--the way you posed the 
question--is the victim of its own success.
    Senator Kaufman. Right.
    Dr. Albright. Because, it is an organization that people--
countries want to be members of. And it does have that 
catalytic effect of producing democratic governments and 
governance and resolving interethnic strife, or they can't get 
in--various issues like that.
    We spent a lot of time on the question that you've asked. I 
mean, there's the whole issue about whether an operation like 
this can operate by consensus. It is very hard, again. And I 
just described what happened in our group is that we went and 
had an ``away day'' with the NAC--we met with the NAC, 
officially and unofficially. And there is no way that the 
consensus concept is going to disappear at the NAC level. 
Countries are asked to contribute troops. And I think the 
United States wouldn't want to be without that.
    So, what we began to look at was whether there were ways 
that the bureaucracy--military, as well as the civilians--could 
be pruned, and how to ensure that decisions could be made in a 
more rational way. We also said that decisions reached by NAC 
shouldn't be undermined at lower levels.
    We spent a lot of time with the military authorities, in 
terms of their looking at how to do more common planning, 
common procurement, more specialization, and put on the table 
ways that we thought that a big alliance could, in fact, 
operate together more rationally.
    But, here the issue is--and I really do believe that major 
mistakes were made on how we pursued the Afghan campaign, early 
on, and that we have to learn from those mistakes. And what I 
find interesting is the way that the Secretary General is 
pushing countries to be more respectful of the common command; 
of giving troops and having them do what they're supposed to do 
in the region where they are. I am the Secretary of State that 
first took NATO to war. And we saw what the problems were, in 
terms of doing that in the Balkans.
    Yesterday, I appeared with Admiral Stavridis, the SACEUR, 
who gets this, totally, and also General Abrial, who is in ACT, 
which is the forward-looking aspect of this, with the French. 
They are looking at exactly the issues that you're talking 
about. And I think it is worth pursuing, and our military 
authorities are working with them, and the CHODs have their 
role. It is not--we raised the issues, and we put some ideas on 
the table, but this is the ongoing reform that the Secretary 
General is going to push with Admiral Stavridis.
    Senator Kaufman. Great. Thank you.
    Dr. Albright. Thank you.
    Senator Shaheen. Good morning.
    I want to echo my colleagues in thanking you for the work 
that you've done on the Strategic Concept and, of course, all 
of your service to this country. It's very nice to have you 
here.
    I had the opportunity to hear firsthand and really see the 
impact of the stability that NATO can provide to countries in 
Europe, when I visited the Balkans last February with Senator 
Voinovich. And what we heard--we visited most of the countries 
in the western Balkans--and what we heard, without exception, 
was the importance of providing MAP for Bosnia, because of the 
stabilizing effect that would have. And I was very pleased to 
see that NATO did, in fact, provide that, with conditions, for 
Bosnia. And hopefully it will have the kind of stabilizing 
effect that people talked about.
    One concern that we heard from some of the countries that 
we visited was that there is enlargement fatigue and that there 
will be obstacles to allowing countries into NATO as we go into 
the future. Can you talk about the extent to which that might 
exist, and how the Strategic Concept addresses that issue?
    Dr. Albright. Well, first of all, I'm glad you went to the 
Balkans, because I do think that the role that NATO has played 
there has been, obviously, crucial and instrumental in getting 
any change. The points that you made, in many ways, address the 
issue of the catalytic effect of holding out that a country 
will be a member of NATO. I think that is a very important 
part.
    We did address the whole issue of the open door and 
enlargement, and felt that there needed to be the continued 
holding the door open, according to Article 10 of the North 
Atlantic Treaty, and that that should be pursued, and that 
there had to be guidelines that follow on Article 10, to make 
clear that joining NATO is not just a privilege, it is a 
responsibility. And that does entail having democratic 
governance, civilian control over the military, a general way 
of being able to run a country without disputes. And so, I 
think it's important to keep that there.
    And also, what's been very interesting, Senator, is the way 
that various glide paths have been kind of expanded and 
subdivided. I mean, when I first started out on this, I was 
U.S. Ambassador to the U.N. I went with General Shalikashvili 
to explain what Partnership for Peace was about. That was the 
initial glide path. And then there were--how that worked--and 
then the MAP, and then the pre-MAP. And so, there are different 
ways that countries are prepared for their membership.
    So, I think that path is there. Article 10 is there. And we 
wanted to make sure that that would happen. It is a large 
alliance. But, I think that it should have members in it that 
are prepared to carry out their responsibilities and then be 
able to live up to what they promise. So, that's where we left 
that.
    Senator Shaheen. Thank you.
    You talk, in your testimony, about the Strategic Concept 
proposing criteria for making decisions about when and where to 
commit NATO resources beyond its boundaries. Can you talk about 
what that criteria should be?
    Dr. Albright. Yes. And if I might, specifically--because I 
think--and it goes a little bit to the question that Chairman 
Kerry asked--is----
    Senator Shaheen. Right.
    Dr. Albright [continuing]. We are in Afghanistan. How is 
it--what are the lessons learned out of it?
    First of all, let me just say this. We do believe that NATO 
is the premier military alliance that exists. But, it isn't the 
only way that one can answer every problem. And one of the--
there were great images that came up. When we had our first 
meeting, we put all the problems on the table--kind of, the 
horrors of the world. And then we began to think: How could 
NATO deal with these issues? And then somebody said, ``We can't 
have NATO be like a Swiss army knife with all the blades 
extended, because when that happens, you can't even pick it 
up.'' And so, you have to figure, what is the appropriate 
instrument? What are the partnerships?
    And NATO, we said, was a regional organization, not a 
global organization. It expands its power by having 
partnerships with countries and organizations, but it can't do 
everything.
    But, what we did say was that--when the issue came up, on a 
case-by-case basis, that deliberations within the NAC should 
give weight to such factors as--and if I might actually list 
them--the extent and imminence of danger to alliance members; 
the exhaustion or apparent ineffectiveness of alternative 
steps; the ability and willingness of NATO members to provide 
the means required for success; the involvement of partners in 
helping to ensure an effective and timely remedy to the problem 
at hand; the collateral impact on other NATO missions and 
needs; the degree of domestic and international public support; 
conformity with international law; and the foreseeable 
consequences of inaction.
    So, we really put down quite a lot of guidelines that 
create a kind of sieve that the NATO members really have to 
think about: What other organizations are there? What 
partnerships?
    So, I think we were pretty careful about this, because--
back to what the chairman said--we could not spend all our time 
on Afghanistan, but we did want to draw the lessons from the 
Balkans and Afghanistan for future guidelines.
    Senator Shaheen. Thank you.
    When you were here last year, as you were starting this 
process, one of the questions that came up was the concern 
about burden-sharing and how--given the different capacity and 
resources of the members of NATO, how resources could be shared 
in a way that had everybody participating and taking 
responsibility, but that recognized that some people didn't 
have the same capacity as other members, to participate. So, 
can you talk about how much of an issue that was, and how you 
think the Strategic Concept has resolved that?
    Dr. Albright. Yes. Well, first of all, we believed, and we 
said, that countries needed to live up to their 
responsibilities. Unfortunately, many of them are not. Each 
country is supposed to devote 2 percent of their budget to 
defense, and only six are actually doing that. So, that--it is 
a real problem.
    We were also doing all this in the middle of a financial 
crisis, and one of the issues that we talked about is, What 
happens now? Most of the countries in NATO have a sizable 
deficit, and the question is, How do they now come up with 
this?
    I did a number of interviews earlier this week in Brussels 
with the Secretary General, who emphasized that NATO 
contributes to stability without which countries would have 
even deeper economic problems than they do.
    Yesterday, Admiral Stavridis made a very important point in 
a discussion that we had--which is that as budgets fall the 2 
percent actually becomes a smaller number. There's not an 
absolute number of what countries have to invest. But the fact 
remains that countries had to live up to their obligations.
    Now, we also tried to look at the cost-saving aspects of 
common funding and similar measures. We also recommend giving 
the Secretary General more authority to find ways to save money 
through reforms, common procurement practices and common 
funding. So, we hit this on all levels. There has to be living 
up to responsibilities, there has to be smarter spending, and 
you can't ask an alliance to do more with less. So, there has 
to be smarter spending, and that's what we were looking at.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Lugar [presiding]. Thank you very much, Senator 
Shaheen.
    I know our chairman will be back in just a moment. But, let 
me continue the questioning, sort of, carrying on the 
conversation on Senator Shaheen's question.
    One of the criticisms of the NATO alliance over the last 
few years has been, essentially, the diminishing of defense 
budgets by most of our allies, across the board. Fewer and 
fewer dollars--or euros--and fewer people, and to a point 
where, even if NATO decided upon an expeditionary force in 
Afghanistan or elsewhere, there would be fewer and fewer 
personnel for that force, most of the objective being internal 
domestic boundary situations. That still seems to be 
continuing.
    And this, you know, leads to a question, I suppose, Can 
European countries, in particular, many of whom have a very 
strong social safety net--an allocation of more and more of 
their resources to pensions, or to education, or to internal 
transportation, or to other domestic situations--but are 
dependent upon the alliance, and maybe us, the United States 
and the transatlantic aspect--I'm just curious whether the 
Commission tried to get into this business of the values of 
expenditures and budgets, the trends of all of this, and 
whether this is going to work, in terms of the future.
    Dr. Albright. I think, Senator, there obviously was a 
recognition of the fact that the United States is the big 
country with all the power in this, and provides the bulk of 
troops in Afghanistan and in other places. And what I think is 
evident here is, many of us have grown up with NATO, but there 
is a whole new generation of people, in Europe and in this 
country, who have no idea what this alliance is about. And so, 
one of the things that we felt was important, and will continue 
to be important, is the transparency of what we've been doing, 
and trying to get support for it, especially given the 
financial situation everywhere.
    And we talked about the fact that this was an alliance of 
equals--on the other hand, that there were some who did more 
than others, and that there had to be a way that there was a 
buy-in by all the countries, in terms of their 
responsibilities. I think this is going to be the big push and 
the big issue.
    The Secretary General--a European--is very much aware of 
this, and has made this a cause, and, in fact, has already 
begun his arguments, including the fact that contributions to 
NATO provide for internal stability.
    So, it's an argument that has to be made. We made it. I 
know that there's a sense that there are those who are not 
doing their share. I think more and more are. I think the 
response to the Secretary General, as well as to President 
Obama and Secretary Clinton, on getting more support for 
Afghanistan is there.
    The thing that I found interesting--and we were never 
totally able to resolve, in terms of how one counts this--but, 
if one talks about the comprehensive approach of military and 
civilian, and the kind of work that has to be done in training 
forces, or training the police, or dealing on reconstruction 
teams, they--the allies are making a variety of very strong 
contributions.
    The question is, Do training and development contributions 
count toward an ally's 2 percent? Not necessarily. So, these 
are the kinds of issues we all have to continue to deal with. 
But, the Europeans on the Group of Experts understood fully the 
message that this was not just the United States bearing the 
burden, but that they had equal responsibility here.
    But, it's hard--there's no question--they have their 
economic problems, and that's why it's so important that we try 
to get the younger generations to understand the value of this 
alliance.
    Senator Lugar. I would conclude by noting that perhaps by 
the time you come to the final conference with the allies, we 
will know more about whether the Greek economy has stabilized, 
and if the challenging situation facing the economies 
throughout the Eurozone is looking better in general. There are 
pessimists who say that this will not be resolved very soon, 
and could even put great pressure, regardless of intent, upon, 
not only those countries that are under much scrutiny, but all 
of the others in the alliance who are trying to support them 
and are trying to support the euro.
    This is a larger question than the ideas before us today 
specifically regarding NATO. But, your comments have underlined 
that a great deal of thought is being given, obviously, by the 
United States and our NATO allies, as to the impact these 
issues could have upon our economies and budgets.
    So, I know that you will be observant of this situation, as 
will those who are going to be around the table with you.
    Dr. Albright. Let me just respond to this--not as the chair 
of this Group of Experts, but as a political scientist and 
observer of the international scene--there is a major shift 
going on here. The European Union was, in fact, with all the 
discussions over the Lisbon Treaty, was moving into a phase of 
more integrated institutional structures. And all of a sudden, 
with the financial crisis, there is a tendency to kind of go 
national again.
    We are watching what the trends are. There are certainly 
those within the European construct who are pushing very hard 
to make sure that the eurozone continues to work together. It's 
very interesting to watch how the central banks are operating--
whether they're going to be able to get their monetary and 
fiscal policies together. To what extent is there dedication to 
the European experiment? And I think it's a very important 
time.
    As an American, I want to see a strong Europe. I actually 
think we're better off with it. And so, I'm hoping that that 
actually works and that the NATO part of this can help in terms 
of stability. Obviously we talked a lot about this because, 
except for the Canadian and me, all the other experts were 
Europeans.
    And if I just might say, back on Afghanistan--there are 
40,000 non-U.S. troops in that country. And although it's not a 
great way to measure things, in terms of per-capita casualties, 
No. 1 is Estonia, second is Denmark, third is Canada, and the 
United States is fifth. In addition. Norway has 4\1/2\ million 
people and they contribute 450 troops. So, if you think about 
450, it doesn't seem so big. But, it's a pretty small 
population. And we have to look at the various aspects of how 
this is done.
    Senator Lugar. Thank you very much.
    Dr. Albright. Yes.
    The Chairman [presiding]. Thank you, Senator Lugar.
    Madam Secretary, I'm interested as to how you all 
approached this review. Was there an automatic assumption and 
agreement that NATO has a purpose that is defined for the 21st 
century? Or did you have to work your way to that? In other 
words, was there a challenge to whether or not NATO, in fact, 
ought to exist and has a relevance in the modern context, 
particularly given the EU issues, the AU, the regional defense 
discussions, and other things going on?
    Dr. Albright. Mr. Chairman, we pulled that apart in many 
different ways. I think what is interesting is, there clearly 
is a default drive that says, ``Once an institution exists, it 
ought to continue existing.'' I mean, that's a part of the 
system, in many ways.
    But, we went through two phases. One was, as I mentioned, 
that all of a sudden, NATO was supposed to do everything. I 
mean we put the horrors of the world on the plate and thought, 
``Well, NATO could do this. NATO could do that.'' And we 
became, I think, much more surgical, in terms of the things 
NATO should be able to do.
    It was--it's very interesting--we're in the third phase of 
NATO. The first phase was very clear. It was an alliance 
against the Soviet Union, and we--in many ways, we knew how to 
do that.
    Then the second phase was the post-cold-war phase where 
there was clearly a desire from countries to join NATO, and it 
was what you were saying, Senator Shaheen and Senator Kaufman--
and just, you know, ``Here we are. Great club. We should--
people should belong to it,'' but a little unclear about how it 
should operate. And was it worth carrying on? And trying to 
persuade the Russians that it was not against them.
    I think we are now in the third phase of how this 
instrument, which really is quite remarkable, can be used for 
these new threats. And so, we then focused on how to make it 
more agile and versatile in a period of unpredictability, not 
saying that it had to do everything. But, from the perspective 
of a decisionmaker, you've got problems out there; which 
alliance or group are you going to pick up? And we felt that 
NATO still was the alliance that was able to deal with these 
issues, versus a coalition of the willing. And I know women are 
not great at sports analogies, but the bottom line is, it's 
better to have a team that trains and operates together, and 
knows how to react in various situations, than just going to a 
pickup operation.
    So, I think that that's where we came out; not NATO, 
everywhere, all the time, as a global organization, but a much 
more streamlined, clear, operational way of keeping together 
countries that have a commonality and that understand that 
their security depends on each other. So----
    The Chairman. That's helpful.
    Dr. Albright [continuing]. We argued both, frankly.
    The Chairman. And, in the context of where you did land, 
you suggested that NATO would benefit with stronger 
partnerships with the entities that I mentioned----
    Dr. Albright. Right.
    The Chairman [continuing]. The EU, the AU, Japan----
    Dr. Albright. Yes.
    The Chairman [continuing]. Russia, et cetera. But, you also 
pointed out that it suffers from this internal coordination 
problem and insufficient capacity of the Article 4 
consultation. Given that, how do you get from here to there?
    Dr. Albright. Yes. Well, first of all, I do think that the 
partnership part was a discovery, for many people. In our third 
seminar that we had, we had a discussion with partners. We 
found out there were more partners than allies. And so, there 
were a number of different types. There were those that were 
organizational ones. We did meet with the EU. I have to admit, 
it was at a moment when the EU was feeling more robust than 
later. It has to do with your question, Senator Lugar. And we 
felt that there were--obviously, the EU and NATO have a lot of 
overlapping members and taxpayers. And so, there--we felt that 
there needed to be a better way that those organizations work 
together. But that the partnerships--in order to be useful, 
there had to be a coordinating mechanism within the bureaucracy 
of NATO to be able to really interact with the various 
partners, and to be able to use them in a way to deal 
effectively with the different issues.
    So, I think that we did look at that. And the coordination 
is something that we said the Secretary General--the countries 
have to get their head around this; there's just no question. 
And it doesn't work by making one more committee. It actually 
works by trying to pair a lot of the committees.
    And what I find interesting--Secretary General Rasmussen is 
on the case. I mean, a lot of changes have happened already. 
They're in the process of reform. I hope the United States and 
other countries will continue to push on this. The partnerships 
help extend NATO's reach--I mean, look at Australia and New 
Zealand, various other countries--but they have to be part of 
the planning, early on. So, a lot of work has to be done on 
that score.
    The Chairman. Well, Madam Secretary, thank you.
    I need to go meet with President Calderon.
    I thank you for your expertise on this, which is really 
important and enormously helpful to the committee.
    I'd like to leave open the record. Although I don't want to 
burden you with a lot of questions, there are a few additional 
ones that would help us.
    Dr. Albright. OK. Very happy to.
    The Chairman. I know you don't have the State Department at 
your disposal to help you put them all--but, you've got----
    Dr. Albright. Good volunteers.
    The Chairman [continuing]. Capable staffs there. So it 
would help us a lot.
    Dr. Albright. And I may say, Mr. Chairman and members of 
the committee, I think that this is going to be an effort, a 
public effort. This is the most transparent working of a 
Strategic Concept, ever. And--partially at the direction of the 
Secretary General and partially my own instincts on it--I think 
it's a treaty that is definitely viable and important for the 
21st century. But it will not happen if the American people 
don't understand it, and the publics in the other countries. 
So, while we have been officially disbanded as a group, we 
liked each other so much that--and everybody thought this was 
such a worthy project, that we're going to keep talking about 
it.
    But I think having your help in all of this is going to be 
absolutely essential. So, whatever you need, we'll be very, 
very happy to provide.
    The Chairman. Well, I think it's key----
    Dr. Albright. I thank you all.
    The Chairman. I was very struck by the point you made about 
the generational shift. You know, a lot of us take NATO for 
granted. But, it is true that probably three-quarters of the 
Nation doesn't really have a sense----
    Dr. Albright. Right.
    The Chairman [continuing]. What it means. That's a lot of 
folks who need to be reconnected to how it's going to have an 
impact on their lives. That's why I think the relevancy and the 
new definitions of threats, and how they're going to act is 
going to be key.
    But NATO itself is going to have to define itself in ways 
that matter to the American people. And if they don't show up, 
or hold back, or there is this division, it is inevitable that 
there will be a serious reevaluation in this country.
    Dr. Albright. Absolutely.
    The Chairman. Yes.
    Dr. Albright. Yes.
    The Chairman. Senator Shaheen, will you chair, at this 
point?
    Senator Shaheen. I'm actually going to go over to----
    The Chairman. Oh, you are----
    Senator Shaheen [continuing]. See----
    The Chairman [continuing]. Going over also? Well, why 
don't----
    Senator Shaheen [continuing]. President Calderon.
    The Chairman [continuing]. If you would--it's your 
questions, until you feel compelled to go over.
    Senator Shaheen [presiding]. OK.
    I have just one question, and it speaks to the issue that 
you were just talking about, about transparency and how do we 
engage the next generation.
    One of the things that I was curious about was that you--I 
understand you actually set up a Web site where people could 
make comments about the Strategic Concept and ideas for the 
alliance, going forward. Did that work? And did it produce 
thoughtful comments and real ideas that could be used?
    Dr. Albright. Well, everything is on--the report was made. 
And I think it's interesting that a report that is a 
recommendation for the one that's actually going to happen, 
that the Secretary General wanted that. Yes. I mean, there have 
been lots of different comments. There have also been various 
other organizations that have had kind of Web seminars on this. 
And there have been a lot of comments. We can let you know 
what--how many hits there really have been. And it's been 
interesting. But there still is the issue out there of how to 
get people generated----
    Senator Shaheen. Right.
    Dr. Albright [continuing]. And interested in it. And there 
are the kind of questions that you all have asked: Why? What? 
Who pays? Why are we in this at all? And the issue of how 
Afghanistan works. So, absolutely.
    Senator Shaheen. Well, thank you----
    Dr. Albright. Thank you.
    Senator Shaheen [continuing]. Again, very much.
    Senator Kaufman [presiding]. Madam Secretary, I'd just like 
to spend a few minutes because I think what the chairman said 
was right, in terms of selling this thing. I think, first off, 
``worthy project'' doesn't begin to state how good what you did 
and what your experts have done. And the fact that you're 
staying together is wonderful.
    But, I really am struck, from my experience in Bosnia and 
Kosovo and Afghanistan, how difficult it is to operate a 
military operation, when you have to operate by consensus. And 
I think selling this is really, really important. So, I think 
we ought to--we're going to have to sell it on what it is and 
all the good things it does--NATO. And I think trying to sell 
it as a military operation, going forward--because I think that 
28 people sitting in a room--and these people are making great 
sacrifices, the NATO troops that are sent--but, when you sit--
in not just--in all these operations with NATO that I've been 
involved in--just sit with the military people, and they don't 
even complain. It's kind of like--they look on it kind of like 
the weather. Trying to figure out how you have a united front 
in these very complex civilian-military operations, when you 
don't know--you can't get a commitment on how we're going to 
provide--and you're asking some people to go into harm's way, 
and others won't go into harm's way--trying to, you know--I 
mean, it's just a nightmare, from a standpoint of having a 
cogent, concentrated military operation to reach fairly fixed 
objectives. So, I'm a little concerned.
    And the thought I was thinking--what I was thinking was, 
these things are now--and I think it's great--they're now not 
military operations, they're military-civilian operations. We 
now have counterinsurgency. I think this is a great opportunity 
to do things that I know you believe in, I believe in. And, you 
know, the military's an important part--clear-hold. But, the 
build part is the essence to success. Can't do it without clear 
and hold, but the build part--and then, transfer--is really the 
key to this thing.
    So, I mean, does NATO--did you talk at all about--you said 
there's a small civilian unit being set up in NATO. I mean, I 
look out there, wherever I go where NATO's involved, and 
civilian--everything from training the police, right on 
through. We need more people--administrators. We need more--to 
do more of these things--we don't--our civilians serve--we 
have, like, less than 400 people--United States people outside 
of Kabul in Afghanistan. And I don't want to bring it back to 
Afghanistan, because I think this--but, I mean, just the idea 
that maybe the place to be, for NATO, in terms of the military 
operation and cooperation, is in the civilian area. Did you 
talk about that at all? Or what do you think about that?
    Dr. Albright. Well, we did talk about it a lot, in terms of 
the whole enlargement, in certain ways, of the civilian 
component, and there are people who said, you know, ``This 
alliance is only for classical warfare.'' It was. It isn't 
anymore.
    Senator Kaufman. Right.
    Dr. Albright. I mean, it is really adapting, and in exactly 
the way you describe it.
    The thing that I would--I'm speaking personally--that I 
would like to see is more credit given for the civilian part of 
this. The truth is that the civilians that are out there are 
exposed to danger. It isn't as if they are, you know, just 
sitting at the beach. They really--have very difficult issues 
to deal with. And one of the problems--and maybe this is 
something that can be worked on--is how to quantify the quality 
of the work that is done. Because there's a great deal in the 
reconstruction teams that has to be done, that countries are 
comfortable doing, and are good at, and are providing real 
added value. We talked about it. And I think it's something 
that needs to be pushed within the system.
    The hard part--and I know exactly what you're saying--when 
you think about how you get 28 countries--but how do you get 
away from the consensus part of this, in the military, if 
people are contributing? So, what we thought was, there was no 
way--absolutely no way to get away from consensus at the NAC 
level. But, we did think that there were ways that the lower-
level committee decisions could be made in a quicker way. And 
so, I do think that was taken on board.
    We did meet with the military authorities--we went to 
SHAPE. We've spent a lot of time with the military committee, 
as well as with the SHAPE people. And I think people get it. I 
just think that attention needs to be paid and pushed. And we 
put out the guidelines for it.
    Senator Kaufman. I tell you, it's really remarkable, in 
Afghanistan--to come back to Afghanistan--how much the military 
appreciates and now understands the civilian effort. I mean, 
it's one of the great organizational, informational things I've 
ever seen. I mean, wherever you go--I've been there three times 
now--wherever you go, from the lowest soldier up to the four-
stars, they all believe in counterinsurgency, and they all 
understand that a very important part of it is the civilians. 
And I think that, when you look at what's going on over there, 
in RC East especially, and how the civilians are beginning to 
integrate themselves into what the Afghan Government's doing, 
and also with the military--and the military's right there. I 
mean, it's really--so, I think there's a real change coming, in 
terms of general understanding of how important the civilian 
piece of this is. And I think it's in all our interest, all of 
us that believe we've shortchanged the diplomatic side of 
everything we do. Like--and Secretary Gates is incredible, in 
terms of talking about this.
    So, I think the time is coming when people will be--really 
will appreciate the civilian effort, because I think, in 
Afghanistan, it's going to make a big difference, and it's 
going to be--people are going to see it is, and the military is 
going to come back and say how helpful they were in organizing 
these different things, and how--Marjah--how difficult it is if 
you don't have the right civilian people in Marjah--the 
military saying that.
    So, I really do think that, you know, this is coming. And I 
really would like you to think about it, because I have so much 
respect for you and for the other people in--the experts--to 
think about, maybe when we're selling NATO, it is not going to 
be a classical military operation anymore. And selling it as a 
classical military operation leaves you open to just getting--
you know, as the chairman said, as we introduce this thing, 
let's not overpromise what it is. And the fact that we've 
changed, the world has changed--I just think that having, ready 
to go, in a time of a counterinsurgency--in the State 
Department, but also in NATO--the ability to put people on the 
ground as fast as we put combat troops on the ground, to handle 
not just AID and not just the agricultural, but administration, 
and all the other--what General McChrystal calls ``government 
in a box.'' But, all the different pieces, so, literally, when 
the military shows up, they have with them a group that's as 
well trained as the military, as conversant in what's going on 
as the military, that have been operating together, that can 
go--that are willing to make these--as you said, these 
absolutely incredible sacrifices. I just think that's--you 
know, as we look down the road and beyond Afghanistan, this is 
the--we're going to be doing these counterinsurgency things, 
unfortunately, for quite a while to come.
    Dr. Albright. I fully agree with you. And I think that what 
has to happen is, there has to be thought given to it ahead of 
time----
    Senator Kaufman. Yes.
    Dr. Albright [continuing]. So that there is a comfort level 
for the civilians and the military operating together. And this 
whole--I mean, it--you know, how vocabulary kind enters 
international parlance--this comprehensive approach is the way 
that there is a blending of the civilian and military. But, 
there has to be planning in that, too, so that people from the 
various agencies know what each other is doing and how they're 
operating and what they're going to do. And I think--we did put 
this on the table--and I personally am going to keep talking 
and pushing about it----
    Senator Kaufman. Great.
    Dr. Albright [continuing]. Because I understand how State 
and Defense need to work together on this. And I appreciate 
your role in this, because it is the way to sell it. And there 
are a lot of people, young people, who actually want to serve 
in that kind of an operation.
    Senator Kaufman. But, it goes back to recruiting.
    Dr. Albright. Yes.
    Senator Kaufman. I mean, you can't--you know, people--the 
example I always use--people who join the Department of 
Agriculture are good people, but they didn't join because they 
want to speak a foreign language----
    Dr. Albright. Right.
    Senator Kaufman [continuing]. Or go to a foreign country. I 
mean, they self-select to go to----
    Dr. Albright. Right.
    Senator Kaufman. Right? And so, there are plenty of people 
out there who want to make a difference, would love to be 
involved in agriculture as part of a team that would go to a 
country----
    Dr. Albright. Right.
    Senator Kaufman [continuing]. Once we're involved with 
them.
    Thank you.
    Dr. Albright. Thank you very much.
    Senator Kaufman. Thank you for your service.
    Dr. Albright. Thank you.
    Senator Shaheen. I guess that's it.
    [Whereupon, at 10:40 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
